No. 21-5261
IN THE SUPREME COURT OF THE UNITED STATES
SHAKEEL KAHN, PETITIONER
VS.
UNITED STATES, RESPONDENT
PROOF OF SERVICE
I, BEAU B. Brindley, do swear or declare that on this date, October 12, 2021, as
required by Supreme Court Rule 29 I have served the enclosed REPLY IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530–0001
I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 12, 2021.
s/ Beau B. Brindley
Beau B. Brindley
COUNSEL OF RECORD
For Petitioner Shakeel Kahn
Law Offices of Beau B. Brindley
53 W Jackson Blvd. Ste 1410
Chicago IL 60604
(312)765-8878
bbbrindley@gmail.com

